No. 19-968
IN THE SUPREME COURT OF THE UNITED STATES
CHIKE UZUEGBUNAM, ET AL., PETITIONERS
v.
STANLEY C. PRECZEWSKI, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE SUPPORTING
PETITIONERS, via e-mail and first-class mail, postage prepaid, this 29th day of September
2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8,265 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 29, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 29, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0968
UZUEGBUNAM, CHIKE, ET AL.
STANLEY C. PRECZEWSKI, ET AL.

JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET, NW
SUITE 600
WASHINGTON, DC 20001
616-450-4235
JBURSCH@ADFLEGAL.ORG
MATTHEW JAMES CLARK
FOUNDATION FOR MORAL LAW
1 DEXTER AVE
MONTGOMERY , AL 36104
CYNTHIA FLEMING CRAWFORD
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD
7TH FLOOR
ARLINGOTN, VA 22201
SCOTT WILLIAM GAYLORE
ELON UNIV. SCHOOL OF LAW
APPELLATE CLINIC
201 NORTH GREENE STREET
GREENSBORO, NC 27401
DANIEL PATRICK KEARNEY, JR.
WILMER CUTLER PICKERING HALE & DORR,
LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006

SCOTT A. KELLER
BAKER BOTTS LLP
700 K STREET, N.W.
WASHINGTON, DC 20001
KEVIN FRANZ KING
COVINGTON & BURLING LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
DEBORAH JOYCE LAFETRA
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
916-419-7111
DLAFETRA@PACIFICLEGAL.ORG
ELBERT LIN
HUNTON ANDREWS KURTH LLP
951 E BYRD STREET
RIVERFRONT PLAZA
EAST TOWER
RICHMOND , VA 23219-4074
LENA FATINA MASRI
CAIR LEGAL DEFENSE FUND
453 NEW JERSEY AVE. SE
WASHINGTON, DC 20003
MONICA LYNN MILLER
AMERICAN HUMANIST ASSOC.
1821 JEFFERSON PLACE NW
WASHINGTON, DC 20036

ANDREW ALAN PINSON
OFFICE OF THE GEORGIA ATTORNEY
GENERAL
40 CAPITAL SQUARE SW
ATLANTA, GA 30334-1300
404-651-9453
APINSON@LAW.GA.GOV

